Page i - K e nne th S. A pfe l



                              O ffice of th e Ins pe ctor Ge ne ral



K e nne th S. A pfe l

Com m is s ione r of SocialSe curity


Ins pe ctor Ge ne ral



Suppl

    e m e ntalSe curity Incom e Unde rpaym e nts D ue D e ce as e d Re cipie nts


Th e attach e d finalre port pre s e nts th e re s ul
                                                    ts of our re vie w of th e Supple m e ntal
Se curity Incom e (SSI)unde rpaym e nts due de ce as e d re cipie nts (A-01-9 7-52006).
Th e obje ctive of our re vie w w as to de te rm ine w h e th e r th e SocialSe curity
Adm inis tration m us t re tain on its re cords inde finite l
                                                            y be ne fits due SSIre cipie nts at
th e tim e of de ath .

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl   ate d on our
re com m e ndations . Ifyou ch oos e to offe r com m e nts , ple as e provide th e m w ith in
th e ne xt 60 days . Ifyou w is h to dis cus s th e finalre port, pl e as e cal
                                                                              lm e or h ave
your s taff contact Pam e l
                          a J. Gardine r, Assistant Ins pe ctor Ge ne ralfor Audit, at
(410)9 65-9 700.




                                                          D avid C. W il
                                                                       liam s
A ttach m e nt

cc:

O IG/ES

              e
IO Re ading Fil

O A Re ading File
Subje ct Fil
           e
R.RUSTIGIA N:m o/pjk :04-23-9 8
Page ii - K e nne th S. A pfe l


                                       9 7-52006TL.doc:Re port Fil
                                                                 e
                                            Office of the Inspector General



Kenneth S. Apfel
Com m is s ione r of SocialSe curity

Inspector General



Supplemental Security Income Underpayments Due Deceased Recipients



Th is re port pre s e nts th e re s ul
                                     ts of our re vie w of Suppl e m e ntalSe curity Incom e
(SSI)unde rpaym e nts due de ce as e d re cipie nts . Th e obje ctive of th is re vie w w as to
de te rm ine w h e th e r th e SocialSe curity Adm inis tration (SSA )m us t re tain on its
re cords inde finite l y be ne fits due SSIre cipie nts at th e tim e of de ath .

Eligibil ity for SSIbe ne fits ce as e s w h e n a re cipie nt die s . O rdinaril  y, unde rpaym e nts
due an SSIre cipie nt at th e tim e of de ath are not payabl            e to a re cipie nt’s e s tate .
H ow e ve r, unde rpaym e nts can be paid to an SSIe l           igible s urviving s pous e , or to
ce rtain ine l igible s pous e s or pare nts for up to 24 m onth s afte r a re cipie nt die s .
SSA routine l    y re m its s uch unde rpaym e nts to s urvivors w h o m e e t ce rtain
re q uire m e nts and re q ue s t paym e nt w ith in 24 m onth s of th e re cipie nt’    s d e ath . In
cas e s w h e re no e l igible s urvivor e xis ts , or w h e n th e s urvivor doe s not re q ue s t
paym e nt, th e unde rpaym e nt w il    lre m ain on SSA ’     s re cords inde finite ly.

In conducting our re vie w , w e ide ntifie d al   lunde rpaym e nts of at l     e as t $1 re m aining
on SSA ’   s re cords for de ce as e d individual s w h o w e re SSIre cipie nts . O ur e xtract
ide ntifie d 19 0,428 SSIunde rpaym e nts total        ing $74 m il lion th at w e re due
re cipie nts at th e tim e of de ath and re corde d on SSA ’      s re cords as of M arch 19 9 7.
From th e s e 19 0,428 unde rpaym e nts , w e s am pl       e d 100 total ing $34,284 for
re vie w . O f th e 100 cas e s re vie w e d, no e ligibl e s urvivor e xis te d for any of th e 100
s am pl e ite m s and none of th e $34,284 re m aine d payabl         e to any s urvivor at th e
tim e of our re vie w . Proje cting th e re s ults of our s am pl   e to th e popul    ation, w e are
9 5 pe rce nt confide nt th at at l e as t 186,09 4 SSIunde rpaym e nts , w ith an e s tim ate d
val ue of $72.37 m il   lion, are no l  onge r payabl    e to any s urvivors and coul      d be
                                                     1
re m ove d im m e diate ly from SSA ’   s re cords .

1
  Alth ough our re vie w of 100 s am pl      e cas e s found th at all100 w e re no l  onge r payabl e to anyone ,
s am pling e rror re s ul
                        te d in our e s tim ate of $72.37 m il  lion ins te ad of th e $74 m ill
                                                                                               ion totalval ue of th e
popul  ation.
Page iii - K e nne th S. A pfe l


Unde rpaym e nts w h ich are not payabl          e to any s urvivor are be ing m aintaine d on
SSA ’   s re cords inde finite l y be caus e SSA doe s not s e gre gate unde rpaym e nt cas e s
w ith SSIe l   igibl e s pous e s from al loth e r unde rpaym e nts . SSIe l    igible s pous e s are
e xcl ude d from th e 24-m onth appl       ication de adl  ine for re ce iving unde rpaym e nts due
de ce as e d re cipie nts . Since th e re is no appl    ication l im it for SSIe l igible s pous e s ,
th e s e s pous e s re m ain e ligible to re ce ive th e unde rpaym e nts inde finite l   y. Th is
po l icy re s ul ts in al luncl aim e d unde rpaym e nts b e ing m aintaine d on SSA ’        s re cords
inde finite l y e ve n w h e n no one e xis ts w h o w oul   d q ualify to re ce ive th e
unde rpaym e nt. M aintaining unde rpaym e nt re cords th at are not payabl                e to anyone
re s ul ts in SSA ’  s s ubs idiary accounting l   e dge rs inaccurate l  y re fl
                                                                                e cting am ounts
payabl    e and re q uire s SSA to e s tim ate th e am ount w h ich is trul     y payabl    e and w h ich
                                              2
it re ports in its financials tate m e nts .

W e re com m e nd th at SSA :

• Corre ct th e approxim ate ly 186,09 4 SSIre cords w ith unde rpaym e nts , w orth an
  e s tim ate d $72.37 m il
                          lion, w h ich are not payabl
                                                     e to anyone .

• M ak e a re gul atory ch ange to e xpand th e 24-m onth appl    ication de adline to
  include SSIe l   igibl
                       e s pous e s s o th at allfuture unde rpaym e nts can be re m ove d
  afte r e xpiration of th e 24-m onth appl    ication de adl
                                                            ine .

In re s pons e to our draft re port, SSA agre e d w ith our firs t re com m e ndation, but
s tate d th at th e inte nde d re s ul
                                     ts of th e s e cond re com m e ndation coul
                                                                               d be obtaine d
w ith out purs uing a re gul   atory ch ange . (SSA ’   s com m e nts are incl
                                                                             ude d in ful
                                                                                        las
A ppe ndix A .)

W h ile w e agre e th at it is pos s ible for SSA to obtain th e s am e re s ul     t of corre cting
its re cords of unde rpaym e nts not payabl       e to anyone w ith out a re gul      atory ch ange ,
w e s tillbe lie ve th at m ak ing th e re gul
                                             ations cons is te nt for both SSIe l      igibl
                                                                                           e s pous e s
and oth e r s pous e s w oul  d be adm inis trative l y e as ie r th an s e gre gating SSIe ligible
s pous e s w h e n corre cting th e unde rpaym e nt re cords . In th e cours e of our financial
s tate m e nt audit, w e w il le xam ine th e e ffe ctive ne s s of th is propos e d corre ctive
action and re cons ide r th e ne e d for a re gul   atory ch ange at th at tim e .



2
  A t th e e xit confe re nce , SSA official  s s tate d th at th e ir re cords indicate th at as of M arch 19 9 7,
th e re w e re approxim ate l  y 9 06,000 SSIunde rpaym e nts to de ce as e d re cipie nts total      ing $19 5 m ilion.
                                                                                                                    l
W e w e re not abl   e to re concil e our figure s to th is am ount s ince w e do not k now th e m e th odol      ogy
us e d to cal  culate SSA’   s figure s . Th e $19 5 m il  lion is th e am ount SSA w oul    d us e to adjus t th e
accounts payabl      e for re porting in its financials tate m e nts .
Page iv- K e nne th S. A pfe l

BACKGROUND

Th e Em pl  oym e nt O pportunitie s for D is abl    e d Am e ricans A ct (Pub lic Law 9 9 -643)
e xpande d SSA ’     s auth ority to re m it be ne fits afte r th e de ath of an SSIre cipie nt.
Spe cifical ly, th is le gis l
                             ation auth orize d SSA to pay be ne fits due an SSIre cipie nt to
a s urviving s pous e re gardl    e s s of th e s urviving s pous e ’s SSIe ligibility.
Additional   ly, th e le gis l
                             ation pe rm its th e pare nt of a dis abl  e d or blind SSIre cipie nt
w h o is d e ce as e d to re ce ive a re troactive paym e nt w h e n due . Pre vious l  y, only an
SSIe l igibl e s pous e coul   d re ce ive a re troactive paym e nt th at w as due a de ce as e d
SSIre cipie nt.

SSIunde rpaym e nts are payabl
                             e to:

• an SSIe l
          igibl
              e s urviving s pous e ;

• an ine ligibl
              e s urviving s pous e w h o l  ive d in th e s am e h ous e h ol
                                                                             d w ith th e
  unde rpaid pe rs on at any tim e in th e m onth of de ath or during th e 6-m onth
  pe riod pre ce ding th e re cipie nt’
                                      s d e ath ;or

• a s urviving pare nt w h o live d in th e s am e h ous e h old w ith th e ch il
                                                                                d at any tim e
  in th e m onth of de ath or during th e 6-m onth pe riod pre ce ding th e re cipie nt’    s
  de ath w h e re th e unde rpaid pe rs on w as a dis abl  e d or bl ind ch il
                                                                             d.

Titl e 20 of th e Code of Fe de ralRe gul    ations (CFR)s e ction 416.542 proh ibits
paym e nt of SSIbe ne fits to a s urvivor, oth e r th an an SSIe l       igible s pous e , w h o
re q ue s ts th e paym e nt m ore th an 24 m onth s afte r th e individual     ’s d e ath . Th is
re gul ation re s ponds to th e ne e d to s e t a re as onabl e adm inis trative l  im it on th e tim e
a s urvivor m ay re q ue s t paym e nt of SSIbe ne fits due a de ce as e d individual       . Th e
lim it for oth e r th an an SSIe l igible s pous e w as s e t at 24 m onth s to m ak e th e tim e
th e s am e as unde r th e O l d-A ge , Survivors and D is abil    ity Ins urance (titl e II)
provis ions of th e SocialSe curity Act for re q ue s ting a l      um p-s um de ath be ne fit. No
tim e l im it w as s e t for SSIe l
                                  igible s pous e s unde r th e s e re gul ations .

SCO PE A ND M ETH O D O LO GY

Th e obje ctive of th is re vie w w as to de te rm ine w h e th e r SSA m us t re tain on its
re cords inde finite l
                     y be ne fits due SSIre cipie nts at th e tim e of de ath . To m e e t our
obje ctive , w e : 1)obtaine d a l e galopinion from th e O ffice of th e Couns e lto th e
Ins pe ctor Ge ne ral, and 2)re vie w e d a s am pl  e of unde rpaym e nts re corde d on th e
re cords of de ce as e d SSIre cipie nts .
Page v- K e nne th S. A pfe l

O ur s am pl e popul  ation cons is te d of 19 0,428 SSIunde rpaym e nts val       ue d at $13 or
gre ate r and re corde d on SSA ’    s re cords as of M arch 19 9 7. A l   lof th e
19 0,428 cas e s h ad a paym e nt code indicating th at th e re cipie nt w as d e ce as e d.
From th is popul   ation, w e s e le cte d a s im pl
                                                   e random s am pl   e of 100 SSI
unde rpaym e nts . Th e totaldol     lar val ue of our s am pl e cas e s w as $34,284. O ur
non-s tatis ticale s tim ate of th e dol  l
                                          ar val ue of th e popul  ation am ounte d to
$72.37 m il   l
              ion and w as cal   cul ate d bas e d on th e proje cte d num be r of
unde rpaym e nts w h ich can be re m ove d from SSA ’        s re cords (186,09 4)m ul   tipl
                                                                                            ie d by
th e ave rage dol lar val ue of e ach unde rpaym e nt of $388.87 ($74,051,451 total
val ue divide d by 19 0,428 unde rpaym e nts ).

For e ach of our s am pl    e d cas e s , w e de te rm ine d w h e th e r any s urvivor w as e l
                                                                                               igibl
                                                                                                   e
to re ce ive th e unde rpaym e nt and ve rifie d th at th e re w e re no outs tanding
ove rpaym e nts on th e re cipie nt’     s re cord w h ich coul  d offs e t th e unde rpaid am ount.
In ve rifying w h e th e r any s urvivor w as e l   igible to re ce ive th e unde rpaym e nt, w e
re vie w e d th e Suppl  e m e ntalSe curity re cord of th e de ce as e d re cipie nt to ide ntify
any SSIe l   igible s pous e s .

W e did not re vie w th e inte rnalcontrolproce dure s as s ociate d w ith re cording of
unde rpaym e nts b e caus e th e y w e re not re le vant to our audit obje ctive .
W e did, h ow e ve r, re vie w SSA ’  s com pl iance w ith appl    e l
                                                               icabl  aw s and
re gul
     ations . W e conducte d our re vie w be tw e e n Jul    y and Nove m be r 19 9 7 in
Bos ton, M as s ach us e tts . O ur re vie w w as conducte d in accordance w ith ge ne ral
                                                                                         ly
acce pte d gove rnm e nt auditing s tandards .

RESULTS O F REVIEW

A t th e tim e of our re vie w , no e l  igible s urviving paye e s e xis te d for any of th e
100 s am pl    e ite m s and al lof th e $34,284 in unde rpaym e nts in our s am pl
        e cas e s
coul  d be re m ove d from SSA ’      s re cords . H ow e ve r, in th e th re e follow
                                                                                    
 ing cas e s ,

th e re h ad be e n e l igible paye e s for a 24-m onth pe riod, but th e unde rpaym e nts w e re

not cl   aim e d during th at 24-m onth pe riod and are no l       onge r payabl    e to any
s urvivors . W e coul     d not de te rm ine w h e th e r SSA h ad notifie d th e s e s urvivors of
th e ir e l
          igibility to re ce ive th e unde rpaym e nts s ince th e cas e fol    de rs w e re no l
                                                                                                onge r
avail  abl e.




3
 W e e xcl
         ude d unde rpaym e nts of l   e s s th an $1 from our re vie w s ince SSA w il    lnot pay an
                         e s s th an $1. A t th e tim e of our re vie w , th e re w e re 44,053 SSI
unde rpaym e nt th at is l
unde rpaym e nts w h ich w e re e ach le s s th an $1 on SSA ’ s re cords for a totalval    ue of $18,163.
Page vi - K e nne th S. A pfe l



    D A TE O F        ELIGIBLE               UND ERPA Y M ENT                            CURRENT
     D EATH         BENEFICIARY                  CAUSE                                   STA TUS
    10/01/87            H usband           Re turne d ch e ck 4 for Spous e w h o is not SSI
                                           $340                     eligible . El
                                                                                igibil
                                                                                     ity for re ce ipt
                                                                    of unde rpaym e nt e xpire d
                                                                    24 m onth s afte r re cipie nt’s
                                                                    de ath .

    06/02/89            H usband           Re turne d ch e ck for         Spous e w h o is not SSI
                                           $184                           eligible . El
                                                                                      igibil
                                                                                           ity for re ce ipt
                                                                          of unde rpaym e nt e xpire d
                                                                          24 m onth s afte r re cipie nt’s
                                                                          de ath .

    08/01/9 1            M oth e r         Re turne d ch e ck for         Eligibility e xpire d 24 m onth s
                                           $344                           afte r re cipie nt’
                                                                                            s d e ath .


Th e 100 s am pl  e cas e s containe d unde rpaym e nts w h ich total  e d $34,284.
Proje cting our re s ults to th e popul  ation of unde rpaym e nts , w e are
9 5 pe rce nt confide nt th at 186,09 4 SSIunde rpaym e nts , w ith an e s tim ate d val   ue of
$72.37 m il  lion, are no l  onge r payabl  e to any s urvivors and coul   d be re m ove d
im m e diate l
             y from SSA ’   s re cords .

Exis ting SSA re gul   ations re q uire th at unde rpaym e nt am ounts are payabl        e
inde finite l
            y in cas e s in w h ich th e re is an SSIe l  igibl
                                                              e s pous e . H ow e ve r, re taining
th e unde rpaym e nt am ounts inde finite l    y in cas e s in w h ich th e re is no e l
                                                                                       igible paye e
re s ul
      ts in unne ce s s ary data s torage cos ts and cre ate s th e appe arance of a l       iabil
                                                                                                 ity
w h e n in fact none e xis ts .

IfSSA s e gre gate d cas e s w ith SSIe l    igibl e s pous e s , th e re m aining cas e s coul d be
autom atical   ly re m ove d w h e n th e appl ication tim e l   im it e xpire s 24 m onth s
afte r a re cipie nt die s . A l
                               te rnative l
                                          y, if SSA am e nde d titl      e 20 of th e CFR,
s e ction 416.542(b) to e xte nd th e 24-m onth appl         ication de adl     ine to SSI-e l
                                                                                             igibl
                                                                                                 e
s pous e s , allne t unde rpaym e nt l  iabil
                                            itie s coul d be re m ove d 24 m onth s afte r a
re cipie nt’ s d e ath . As note d on page 6, pas t SSA actions s ugge s t th at SSA h as
th e auth ority to m ak e th is re gul  atory ch ange .


4
 Th e l as t ch e ck s e nt to th e re cipie nt w as re turne d to SSA , cre ating an unde rpaym e nt on th e
de ce as e d re cipie nt’s re cord.
Page vii - K e nne th S. A pfe l

A s SSA e xpre s s l y note d in its finalrul     e s on paym e nts due de ce as e d SSIre cipie nts
in 58 Fe de ralRe gis te r 529 09 , SSA ch os e to m ak e “. . . s e ve raloth e r ch ange s th at
are unre l ate d to th is l       ation but w h ich cl
                            e gis l                       arify longs tanding pol   icy or invol ve
ove rpaym e nt and unde rpaym e nt is s ue s .” Furth e r, SSA cite d adm inis trative
conve nie nce , as oppos e d to e xpre s s s tatutory auth ority, to jus tify th e 24-m onth
appl ication de adl   ine . Th us , e xcl uding SSI-e l   igible s pous e s from th e tim e lim it w as
a pol icy de cis ion and SSA did not anticipate a s tatutory im pe dim e nt to tak ing s uch
a pos ition. In fact, in its finalrul      e s in 58 Fe de ralRe gis te r 529 09 , SSA note d th at
th e 24-m onth appl      ication de adl  ine “. . . re s ponds to th e ne e d to s e t a re as onabl e
adm inis trative l im it on th e tim e a s urvivor m ay re q ue s t paym e nt of SSIbe ne fits
th at m ay be due a de ce as e d individual        .” W e agre e th at s uch an adm inis trative
tim e lim it is ne ce s s ary and be l ie ve th at th e s am e tim e l             d be e xte nde d to
                                                                       im it s h oul
al lunde rpaym e nts , incl   uding th os e payabl     e to SSI-e l igible s pous e s .

SSA pre pare s and pre s e nts its financials tate m e nts s o th at th e y are cons is te nt
w ith th e re q uire m e nts of th e Fe de ralA ccounting Standards A dvis ory Board, th e
O ffice of M anage m e nt and Budge t (O M B)Circul        ars , and th e Ch ie f Financial
O ffice rs A ct. O M B Circul   ar A -134 re q uire s th at age ncie s appl y State m e nts of
Fe de ralFinancialA ccounting Standards (SFFAS)in pre paring financials tate m e nts .
SFFAS
num be r 1 s tate s th at a l iabil ity is a probabl e and m e as urabl  e future outfl ow of
re s ource s aris ing from pas t trans actions or e ve nts .

Th e SSIunde rpaym e nts d e s cribe d in th is re port are m e as urabl      e and did aris e as a
re s ult of pas t trans actions . H ow e ve r, th e s e unde rpaym e nts are not probabl        e
outfl  ow s of re s ource s s ince th e y are no l onge r payabl   e (or w e re ne ve r payabl    e ) to
any s urvivor. As such , th e s e unde rpaym e nts s h oul      d not be re corde d and re porte d
as l iabil itie s in SSA ’s financials tate m e nts . To e ns ure th at th e s e liabilitie s are not
re porte d in th e financials tate m e nts , SSA m ak e s an adjus ting e ntry for al        l
unde rpaym e nts payabl       e on th e re cords of de ce as e d re cipie nts . H ow e ve r, th is
adjus tm e nt is not m ade to th e unde rl    ying re cords and doe s not s e gre gate th os e
re cords w h e re th e unde rpaym e nt is a true l    iabil
                                                          ity from th os e w h ich are no l     onge r
payabl    e to anyone . IfSSA w e re to adjus t th e individualre cords w h e re no paye e
e xis ts , th e re w ould no l onge r be a ne e d for an ove ral  ladjus ting e ntry for financial
s tate m e nt re porting and th e s ubs idiary re cords w oul    d accurate l  y re fl
                                                                                     e ct am ounts
payabl    e to re cipie nts and s urvivors .

RECO M M END A TIO NS

W e re com m e nd th at SSA :
Page viii - K e nne th S. A pfe l

1. Corre ct th e approxim ate ly 186,09 4 SSIre cords w ith unde rpaym e nts , w orth an
   e s tim ate d $72.37 m il
                           lion, w h ich are not payabl
                                                      e to anyone .

2. M ak e a re gul atory ch ange to e xpand th e 24-m onth appl    ication de adl
                                                                                ine to
    include SSIe l  igibl
                        e s pous e s s o th at allfuture unde rpaym e nts can be re m ove d
   afte r e xpiration of th e 24-m onth appl   ication de adl
                                                            ine .
AGENCY CO M M ENTS

In re s pons e to our draft re port, SSA agre e d w ith our firs t re com m e ndation, but
s tate d th e inte nde d re s ults of th e s e cond re com m e ndation coul          d be obtaine d
w ith out purs uing a re gul   atory ch ange . In th is re gard, SSA s tate d th at actions
be ing tak e n in re s pons e to our firs t re com m e ndation w il           im inate th e ne e d for a
                                                                           le l
re gul atory ch ange . In th e finalrul     e s publ
 is h e d in 19 86, SSA de cide d not to purs ue
a re gul atory ch ange to incl    ude e l igibl e s pous e s in th e 24-m onth l      im it for re q ue s ting

paym e nt of an unde rpaym e nt for tw o re as ons . Firs t, SSA did not be l               ie ve th e re
w oul  d be a ne e d to h ave a 24-m onth l       im it for e l  igible s pous e s , be caus e th e e ligibl e
s pous e is on th e re cord and our audit de m ons trate d th at e l          igibl e s pous e s are paid
w ith in th e 24-m onth l  im it. Se cond, SSA be l        ie ve s th at it w oul
d be unfair to s om e
s urviving e l igible s pous e s to pl ace a 24-m onth l        im it on th e pe riod of tim e th e y

h ave to appl   y for an unde rpaid am ount s ol        el y to h andl   e an adm inis trative s ituation
th at w oul  d rare ly occur.

O IG RESPO NSE

W h ile w e agre e th at it is pos s ible for SSA to obtain th e s am e re s ul     t of corre cting
its re cords of unde rpaym e nts not payabl       e to anyone w ith out a re gul      atory ch ange ,
w e s tillbe lie ve th at m ak ing th e re gul
                                             ations cons is te nt for both SSIe l      igibl
                                                                                           e s pous e s
and oth e r s pous e s w oul  d be adm inis trative l y e as ie r th an s e gre gating SSIe ligible
s pous e s w h e n corre cting th e unde rpaym e nt re cords . In th e cours e of our financial
s tate m e nt audit, w e w il le xam ine th e e ffe ctive ne s s of th is propos e d corre ctive
action and re cons ide r th e ne e d for a re gul   atory ch ange at th at tim e .




                                                                D avid C. W il
                                                                             liam s
A PPEND ICES

                A PPEND IX AA PPEND IX A



SSA ’
    s CO M M ENTS
                                                                    A PPEND IX BA PPEND IX B



            M A JO R REPO RT CO NTRIBUTO RS


O ffice of th e Ins pe ctor Ge ne ral

Roge r Norm and, D ire ctor, North e rn Program Audit D ivis ion

Rona Rus tigian, D e puty D ire ctor

Ste ve n Kurk e r, Auditor



For additionalcopie s of th is re port, pl
 e as e contact th e O ffice of th e Ins pe ctor
Ge ne ral ’
          s Publ                   is t at (410)9 66-9 135. Re fe r to Com m on
                ic A ffairs Spe cial
Ide ntification Num be r A -01-9 7-52006.
                       A PPEND IX CA PPEND IX C



SSA O RGA NIZ A TIO NA LCH ART

